WAIVER

Supreme Court of the United States

No. 19-1070
Jeffrey Alan Olson ve Pennsylvania
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
8 Please enter my appearance as Counsel of Record for all respondents.

O There are multiple respondents, and J do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

@ Tama memher of the Bar of the Supreme Court of the United States.

G Iam not presently a member of the Bar of this Coart. Should a response be requested,
the response will Jy Dy

  

 

 

 

Signature a
Date: 3 fi ! cf; 20
{Type or print) Name. Hoel Fo &uRNS, TR,
Mr. O Ms. O Mrs, O Miss

Firm _A7T@RVEY CEN ERAL 0K PENNSYLVANIA
Address__/G90° ARCH ST suiré 306
City & State PH/LADELCHIA PA tip £9193
Phone 424 390 S143
SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF

PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce pave rHemar LEAKE, ESQ.

Obtain status of case on the docket. By phone at 202-479-8034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

 
